Audit of Selected Micro and Small Enterprise
Development Loan Guarantees in the Philippines


Report No. 5-000-03-002-P

August 5, 2003




                 Manila, Philippines
August 5, 2003

MEMORANDUM
FOR:           DAA/EGAT, Jonathan Conly

FROM:          AIG/A, Bruce N. Crandlemire /s/

SUBJECT: Audit of Selected Micro and Small Enterprise Development Loan
Guarantees in the Philippines, Report No. 5-000-03-002-P


This is our final report on the subject audit. In finalizing this report, we considered
your comments to the draft report and included the comments in their entirety as
Appendix II.

This report contains two recommendations. In your response to our draft report, you
concurred with the recommendations and the potential savings. Therefore, we consider
that management decisions have been made on both recommendations. Please
coordinate final action for each of these two recommendations with USAID’s Office of
Management Planning and Innovation.

I appreciate the cooperation and courtesies extended to my staff during the audit.
This page intentionally left blank.
Table of   Summary of Results                                          5
Contents
           Background                                                   5

           Audit Objective                                              6

           Audit Findings

                  Did USAID monitor selected Micro and Small            7
                  Enterprise loan guarantees in the Philippines
                  to ensure that financial institutions adhered to
                  the requirements of the loan guarantee agreements?

                         ODC Needs to Better Monitor Loan               8
                         Management by Banks and Loan
                         Default Recoveries

           Management Comments and Our Evaluation                      14

           Appendix I - Scope and Methodology                          15

           Appendix II – Management Comments                           17

           Appendix III – Summary of Compliance with Loan              23
           Guarantee Agreements for Three Banks in the Philippines




                                                                            3
This page intentionally left blank.




                                      4
Summary of   The Regional Inspector General/Manila, audited the Micro and Small Enterprise
Results      Development loan guarantee program in the Philippines to determine whether
             USAID monitored the program to ensure that financial institutions adhered to the
             requirements of their loan guarantee agreements. The audit focused on three
             banks in the Philippines to which USAID had paid large amounts for claims on
             defaulted loans that it had guaranteed.

             For the claims audited, USAID monitored the Micro and Small Enterprise
             Development loan guarantee program (see page 7), but the monitoring did not
             ensure that financial institutions had adhered to their loan guarantee agreements.
             The audit identified opportunities for USAID to improve its monitoring of the
             program (see page 8). Additionally, we recommended that USAID (1) review
             and recover, as appropriate, $891,813 it paid for claims on defaulted loans which
             violated the banks’ loan guarantee agreements, and (2) implement procedures to
             regularly monitor banks’ efforts to recover funds from borrowers who defaulted
             on their loans (see page 14).

             USAID’s Office of Development Credit concurred with both recommendations,
             and described actions taken and planned to implement the recommendations (see
             page 14).


Background   USAID has several loan guarantee programs, including the Micro and Small
             Enterprise Development (MSED) program, the Urban and Environmental
             Guarantee program, and the Development Credit Authority program. The
             Office of Development Credit (ODC) manages these programs, whose purpose
             is to finance development activities in foreign countries.

             The purpose of the MSED program, which ended in the Philippines in
             September 2000, was to stimulate the growth of privately-owned micro and
             small enterprises, and/or microfinance institutions by providing credit through
             host country financial institutions. To encourage financial institutions to
             provide these loans, USAID shared the risk that the borrowers might default,
             hence the term, loan guarantee.

             Under the MSED program, Loan Portfolio Guarantees were the primary
             guarantee vehicles. A financial institution participating in the MSED program
             enrolled qualified loans in its portfolio, and the Loan Portfolio Guarantees
             provided a loan guarantee of up to 50 percent of the net loss on the principal
             amount of enrolled loans made by financial institutions to eligible borrowers.

             To participate in the MSED program, foreign financial institutions had to
             submit an application to ODC. Managers of the financial institutions had to
             sign the application, indicating that they would comply with the standard terms
             and conditions that are part of the application. Upon USAID’s acceptance, the


                                                                                             5
             five-part application would become, in effect, the loan guarantee agreement.
             Additionally, financial institutions had to file claims with USAID to obtain
             reimbursement for USAID’s share of the losses on defaulted loans.


             According to the ODC, $32 million was the maximum amount of loans that
             could be enrolled in Asia under the MSED program in June 2001. This amount
             was distributed among four participating Asian countries. The graph below
             shows the distribution by country of the $1,783,005 in claims paid by USAID
             for its share of the losses on defaulted loans at June 2001, the most recent date
             for which information was provided.1


                                  USAID Payments on MSED Claims in Asia
                                            (As of June 2001)
                                                                       $1,755,325
                   $2,000,000
                   $1,500,000
                   $1,000,000
                     $500,000
                                          $0           $27,680                          $0
                          $-
                                     Bangladesh        Indonesia       Philippines   Sri Lanka


             As the graph shows, the Philippines had by far the largest (about 97 percent)
             portion of claims paid by USAID on defaulted loans. In addition, a 1999 audit of
             claims filed by a Philippine bank participating in the MSED program disclosed
             numerous instances of noncompliance and many invalid claims. Because of its
             large percentage of claims and the problems noted in the earlier audit, we chose
             the Philippines to conduct this audit, as discussed in the Scope and Methodology
             section of this report.


Audit         As part of its fiscal year 2002 audit plan, the Regional Inspector General/Manila,
Objectives   audited USAID’s Office of Development Credit to answer the following audit
             objective:

             Did USAID monitor selected Micro and Small Enterprise Development loan
             guarantees in the Philippines to ensure that financial institutions adhered to the
             requirements of the loan guarantee agreements?


             1
                 Information was provided by USAID and is unaudited.


                                                                                                 6
                 Appendix I contains a complete discussion of the scope and methodology for this
                 audit.


Audit Findings   Did USAID monitor selected Micro and Small Enterprise Development
                 loan guarantees in the Philippines to ensure that financial institutions
                 adhered to the requirements of the loan guarantee agreements?

                 For the loans audited, USAID’s Office of Development Credit (ODC) had
                 monitored the Micro and Small Enterprise Development (MSED) loan guarantee
                 program, but the monitoring did not ensure that financial institutions (banks) had
                 adhered to the requirements of their loan guarantee agreements. The audit
                 identified certain opportunities to improve monitoring of this program.

                 On the positive side, ODC had designed and implemented a monitoring system
                 for the MSED program which included:

                 •   Requiring banks to use standard forms for enrolling loans, reporting the status
                     of loan portfolios, and for filing claims on defaulted loans.

                 •   Using “issues letters” to obtain additional information when required forms
                     were inadequately completed or submitted late.

                 •   Contacting banks to resolve issues regarding their payments of fees to
                     participate in the MSED program.

                 •   Conducting field visits to banks and requiring written trip reports. ODC staff
                     visited some participating banks in the Philippines in March 2000 and March
                     2002.

                 •   Hiring a contractor to help monitor the accuracy and timeliness of
                     information submitted by banks on their portfolios.

                 •   Working with USAID/Philippines to provide training to participating banks
                     on MSED program requirements.

                 •   Hiring auditors to perform on-site reviews when banks’ claims were
                     considered excessive. Three such reviews were performed in the Philippines.
                     The Defense Contract Audit Agency performed agreed-upon procedures at
                     one bank in November 1999, and at another bank in August 2000. KPMG
                     performed a review at another bank in June 2002.

                 However, as discussed below, ODC’s monitoring system needs improvement in
                 the areas of loan management by banks and loan default recoveries.




                                                                                                  7
ODC Needs to Better Monitor Loan Management by Banks
and Loan Default Recoveries

USAID’s ODC is responsible for ensuring that foreign banks participating in the
MSED program comply with program requirements.2 However, none of the three
banks covered by this audit complied with MSED program requirements. This
noncompliance occurred because ODC did not adequately monitor the banks. As
a result, USAID paid $891,813 to the banks for claims on the sample of 32
defaulted loans which did not meet program requirements. USAID has recovered
about $6,242—or only 0.7 percent of the $891,813 it paid out.

As noted earlier, a bank signs an MSED loan guarantee agreement
acknowledging that it will abide by the agreement’s Standard Terms and
Conditions. One critical requirement is that banks must maintain books and
records to show compliance with the terms and conditions.3 Testing included
whether banks complied with seven loan management terms and conditions
relating to: (1) borrower eligibility, (2) loan eligibility, (3) loan renewal, (4) loan
enrollment, (5) proof of loan disbursement, (6) loan collection efforts, and (7)
loan write-off or loss provisions. The testing of these seven attributes included
ascertaining whether adequate books and records were maintained (page 9).
Additionally, testing covered recoveries on defaulted loans (page 12). These tests
were performed on 32 MSED program loans issued by three banks on which the
borrowers had defaulted and for which USAID had paid claims.

These banks, all located in Manila, Philippines, were Asiatrust Bank (see photo
on next page), Far East Bank and Trust (FEB and Trust), and Far East Bank
Leasing (FEB Leasing). These latter two banks were acquired by the Bank of the
Philippine Islands in calendar year 2000; however, in this report we refer to them
as separate banks.




2
  Office of Credit and Investment Manual, Volume 1: Credit Manual for USAID’s Micro and
Small Enterprise Development (MSED) Program, Section 1.6.1.1, page 22
3
  Application for Microenterprise and Small Business Loan Portfolio Guarantee, Part V
(Standard Terms and Conditions), Section 7.06


                                                                                     8
         Photograph shows the main office of Asiatrust Bank, which
         participated in the MSED program. (Manila, Philippines, November
         2002)

Loan Management by the Banks – The audit identified opportunities for
ODC to strengthen its monitoring over the way banks manage MSED program
loans from the point they are initiated to the point they are written off as
uncollectible. As the chart below shows, for each of the seven attributes tested,
at least eight of the 32 MSED loans did not comply with the attribute.
Noncompliance rates varied from a low of 25 percent (8 of 32 for proof of loan
disbursement) to a high of 100 percent (32 of 32 for not having a loan write-off
or loss provision). None of the 32 loans reviewed complied with all seven
attributes. A detailed discussion of the attributes tested follows, and Appendix
III summarizes the results by bank.




                                                                               9
                   Overall Rates of Non-Compliance with Loan Guarantee Agreements

                                  Exceptions (No.)


           Borrower Eligiblity             9 of 32



               Loan Eligibility                                    30 of 32



                Loan Renewal                              24 of 32



            Proper Enrollment                  13 of 32



        Proof of Disbursement            8 of 32



             Collection Efforts                            25 of 32



    Write-off or Loss Provision                                       32 of 32

                                  -                20         40                 60   80   100

                                                            Exception Rates (%)




Borrower Eligibility – Nine of the 32 loans audited were made to borrowers
who, based on the loan files, were not eligible to participate in the MSED
program, which was designed to encourage loans to small enterprises. In eight
of these nine cases, the borrowers had assets (excluding land and buildings)
exceeding the $250,000 limit specified in Annex A of the loan guarantee
agreement. In one case, the borrower was a Taiwanese citizen who did not
reside in the Philippines. The Standard Terms and Conditions (Section
2.01[a][1]) require the borrower to be a citizen of the country where the MSED
program is being carried out.

Loan Eligibility – In 30 of 32 cases, the banks did not provide evidence that the
loans met eligibility requirements stipulated in the Standard Terms and
Conditions (Sections 2.01 [b], [c] and [d]). Although the Transaction Report
(the form used to enroll a loan into the guarantee portfolio) asks the purpose of
the loan (followed by the parenthetical request, "please describe in full detail"),
the banks generally responded with the words "working capital." Such
responses did not enable the ODC to evaluate whether the loan would be used
for any one of several prohibited purposes. For example, Sec 2.01[c] states
that "The loan may not finance the purchase or lease of motor vehicles
manufactured outside the United States." One loan was to a borrower
"primarily engaged in the importing, assembling and selling of reconditioned
trucks and heavy equipment from Japan." In contrast, the Transaction Report



                                                                                                 10
that the bank submitted to ODC described the purpose of the loan as
"additional working capital." In this case, ODC did request more information
on the loan's purpose. The bank's faxed response led ODC to conclude that the
borrower's business was the importing and selling of U.S. manufactured heavy
equipment—a conclusion which conflicted with the bank's records.

Loan Renewals – In 24 of 32 cases, the banks did not demonstrate that the
loans were not renewals or extensions of pre-existing loans. Such renewals
and extensions are prohibited by the Standard Terms and Conditions (Section
2.01[e]). In ten cases, loan approval memoranda in the banks’ files actually
stated that the loans were renewals, and in all 24 cases, borrowers’ files
contained evidence of previous loans. The banks did not provide payment
histories for the loans, which would have substantiated whether the MSED
loans were, in fact, renewals or extensions of the previous loans. In any case,
banks are required to maintain books and records to show compliance with the
Standard Terms and Conditions (Section 7.06 [A]).

Proper Enrollment – In 13 of 32 cases, the loans were not properly enrolled in
the MSED program. Section 2.01[h] of the Standard Terms and Conditions
requires that term loans be enrolled within ten business days of disbursement,
and that credit lines be enrolled within ten business days of approval. None of
the 13 loans were enrolled timely, and one loan was enrolled one year and 261
days late. USAID also specified that, for the Philippines, "… the maximum
loan size may not exceed US $150,000." However, one borrower had obtained
loans totaling about US $400,000.

Proof of Disbursement – In 8 of 32 cases, the banks did not provide proof that
loan proceeds were actually disbursed. Generally, legal proof of disbursement
consists of a promissory note, a document with which the borrower
acknowledges the debt to the bank. In other instances, banks discounted
checks written by the borrower’s customers, and copies of those checks served
as the borrower’s legal acknowledgement of the debt. Such legal proof of
disbursement was lacking for the eight loans.

Collection Efforts – For 25 of the 32 loans audited, the banks did not provide
evidence (e.g., telephone call logs, copies of collection letters, and minutes of
meetings with borrowers) of diligent collection efforts. Section 5.01[B]
requires that a bank pursue all reasonable and diligent collection efforts against
the borrower. For 18 of the 32 loans audited, the banks did not provide
documentation that they had demanded from the borrower full payment of all
amounts due as required by Section 5.01[A] of the Standard Terms and
Conditions.

Write-off or Loss Provision – The banks did not substantiate that any of the 32
loans had been written off as a bad debt expense or that in lieu of writing them
off, bank management had established a specific provision for possible loan



                                                                               11
            losses. The Standard Terms and Conditions (Section 5.01[C]) require that
            banks take one of these two actions before filing an MSED program claim.

            Loan Default Recoveries – The audit also identified opportunities for ODC to
            strengthen its monitoring in order to increase recoveries on MSED program
            defaulted loans. The Standard Terms and Conditions require banks to (1)
            pursue collections efforts after an MSED program claim has been filed with
            USAID, and (2) share any recoveries with USAID. The chart below shows
            that at February 2003, the total defaulted amount for the 32 loan claims tested
            totaled $1,783,627. By contrast, recoveries totaled only $12,484 or 0.7 percent
            of the total defaulted amount. Additionally, although it paid $891,813 (50
            percent) of the total defaulted amount, USAID has received only $6,242 in
            recoveries.


                                Recoveries on 32 MSED Program Defaulted Loans
                                             (As of February 2003)


                     $949,573
            $1,000
                                 $902,968
             $875

             $750
Thousands




             $625
                                                                                                   $506,033       $506,033
             $500
                                                            $416,901
                                                                        $374,626
             $375

             $250

             $125
                                               $7,160                                   $0                                       $5,324
              $-
                       Loaned



                                   Defaulted



                                                Recovered



                                                              Loaned



                                                                           Defaulted



                                                                                       Recovered



                                                                                                       Loaned



                                                                                                                     Defaulted



                                                                                                                                  Recovered




                                 Asiatrust                             FEB Leasing                              FEB and T rust




            The chart also depicts how virtually all the loans went into default before any
            significant payments were made. Specifically, of the total loaned amount of
            $1,872,507, only $88,880 was paid before all 32 loans were declared in default.

            The rapid loan defaults, the low recovery rate and the recovery-related
            problems listed below are reflections of the bank management issues discussed


                                                                                                                                              12
earlier in this report. Other problems with recoveries on MSED program
defaulted loans included the following:

   The banks cannot locate 12 borrowers.

   The banks cannot locate assets that four borrowers pledged as collateral.

    Ten borrowers wrote checks to the banks which were later returned because
of insufficient funds or because the checks were written on closed accounts.

    In one instance a borrower’s property had been confiscated and sold, but
the proceeds totaling $76,562 had not been shared with USAID.

    In ten cases, the banks recovered but had not sold pledged properties with a
total value of $495,048. These properties have been in the banks’ possession
for as long as 3 years.

In general, the exceptions relating to loan management were caused by
inadequate monitoring of the banks by ODC. ODC did not adequately monitor
the banks because it relied on standard forms prepared by the banks for
information about the loans and claims. For example, ODC could not
determine whether loans enrolled in the MSED program were renewals without
reviewing payment histories of prior loans, and ODC did not obtain those
payment histories. As another example, ODC could not spot fictitious loans
without proof of the loans’ disbursement, and ODC did not obtain such proof
for some loans.

Problems related to recoveries also were caused by inadequate monitoring of
the banks by ODC. For example, in one case where a bank recovered money it
over-refunded USAID for its share. However, USAID accepted the refund
without question. Further, management at two of the three banks stated that
they had obtained mortgages on non-MSED program loans made to borrowers
who had defaulted on their MSED loans. They added that they did not intend
to share proceeds from foreclosures on the non-MSED loan mortgages with
USAID. However, the Standard Terms and Conditions stipulate that such
proceeds must be shared with USAID. ODC had no monitoring mechanism in
place to detect such foreclosures, and the audit identified one such undisclosed
recovery, totaling $2,734. Finally, according to ODC officials, the portion of
the Credit Manual which establishes procedures for MSED program recoveries
is no longer applicable. No updated procedures were available, and ODC was
able to provide information on recoveries for only one of the three banks
audited—and that information was dated September 1999.

The inadequate monitoring of the three banks participating in the MSED
program resulted in USAID paying $891,813 in claims to the banks for 32
defaulted loans that did not comply with various aspects of the applicable loan



                                                                               13
             guarantee agreements. Inadequate monitoring also contributed to the low level
             of recoveries on those same defaulted loans.

             Because the MSED program is being discontinued, we are not making a
             recommendation that ODC improve its monitoring over bank management of
             MSED program loans.           However, ODC’s replacement program, the
             Development Credit Authority loan guarantee program, could benefit from
             careful consideration of the exceptions we noted. We are making a
             recommendation about recoveries because the banks are still obligated to
             pursue recoveries on defaulted MSED loans and share any recoveries with
             USAID. Additionally, if ODC does not have procedures to monitor recoveries
             in its Development Credit Authority program, the recommendation about
             recoveries would benefit that program as well.

                    Recommendation No. 1: We recommend that the Office of
                    Development Credit review and recover, as appropriate,
                    claims totaling $891,813 for loans which violated the loan
                    guarantee agreements, and similarly review all other claims
                    on defaulted loans which were not covered by this audit.

                    Recommendation No. 2: We recommend that the Office of
                    Development Credit implement procedures to regularly
                    monitor recoveries on the Micro and Small Enterprise
                    Development program claims.



Management   In response to our draft audit report, the Economic Growth, Agriculture and
Comments     Trade Bureau’s Office of Development Credit (ODC) provided written
             comments that are included in their entirety as Appendix II. In its written
and our
             comments, the ODC concurred with both recommendations and the potential
Evaluation   savings, and outlined corrective actions taken and to be taken. ODC also
             stated that it appreciated the insights presented in the report, and that the
             report’s recommendations prompted it to make a number of changes in how it
             handles portfolio monitoring and post-claim recoveries for loans made not only
             under the Micro and Small Enterprise Development program, but also under
             the Development Credit Authority program. Based on ODC’s response,
             management decisions have been reached for both recommendations.
             USAID’s Office of Management Planning and Innovation (M/MPI) will
             determine final action after ODC provides M/MPI with evidence that the
             recommendations have been implemented.




                                                                                        14
                                                                                 Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General/Manila, conducted this audit in accordance with
              generally accepted government auditing standards. The purpose of the audit was
              to determine whether USAID monitored selected Micro and Small Enterprise
              Development loan guarantees in the Philippines to ensure that financial
              institutions adhered to the requirements of the loan guarantee agreements.

              The audit covered the Micro and Small Enterprise Development (MSED) loan
              guarantee program which is managed by USAID's Bureau of Economic Growth,
              Agriculture and Trade, Office of Development Credit (ODC) in Washington,
              D.C. The audit fieldwork was conducted at ODC, USAID/Philippines, and at the
              following three banks headquartered in Manila, Philippines:

               •   Asiatrust Bank.

               •   Far East Bank Leasing and Finance (acquired by the Bank of the Philippine
                   Islands in 2000).

               •   Far East Bank and Trust (acquired by the Bank of the Philippine Islands in
                   2000).

              We selected the three Philippine banks because of their large MSED program
              claims and because a prior MSED program audit performed by the Defense
              Contract Audit Agency of another bank in the Philippines disclosed significant
              problems with the way that bank managed its MSED program loans. Based on
              these and other factors, we assessed overall risk for the MSED program in the
              Philippines as high. Consequently, we judgmentally selected the 32 largest
              claims at the three banks for review. These 32 claims made up over 93 percent
              ($891,813 out of $952,095) of the MSED claims paid by USAID to the banks
              during the period from September 1998 to September 2000.

              We conducted fieldwork at ODC in Washington in June 2002 and continued
              communicating with ODC throughout the audit. Fieldwork at the three banks
              began in September 2002 and ended in January 2003. During the audit, we
              interviewed USAID/Philippines officials to determine their participation, if any,
              in the MSED program.

              In planning and performing the audit we obtained an understanding of
              management controls related to the MSED program. We interviewed key ODC
              individuals and reviewed pertinent documentation. Our examination included 1)
              procedures for enrolling financial institutions and loans, 2) procedures for
              obtaining, reviewing, and verifying loan and claim information submitted by
              financial institutions, 3) site visit procedures, 4) coordination and contact



                                                                                            15
procedures with USAID/Philippines and financial institutions, 5) ODC’s Fiscal
Year 2002 self-assessment under the Federal Managers’ Financial Integrity Act
of 1992, and 6) prior audit findings.

Methodology

To answer the audit objective, we reviewed applicable laws, regulations, and
USAID policy and guidance. We interviewed officials and reviewed documents
at ODC and at USAID/Philippines to gain an understanding of the policies and
procedures used to monitor the MSED program. These discussions and
documents covered such areas as program background, organizational structure,
management and staff responsibilities, and records of participating banks, loans
enrolled and claims paid.

At the three selected banks, we interviewed officials and reviewed relevant
documentation to gain an understanding of their policies and procedures for
managing MSED program loans and claims and for complying with their
MSED loan guarantee agreements. To determine whether the banks actually
complied with the Standard Terms and Conditions contained in their MSED
loan guarantee agreements, we reviewed bank records for 32 judgmentally
selected claims. The records included claim and loan files, correspondence,
and reports submitted to ODC. For the seven loan management attributes
tested, the audit established the following materiality thresholds. If 90 percent
or more of the sample claims met all seven attributes, then the answer to the
audit objective would be positive. If 70 to 90 percent of the sample claims met
all seven attributes, the answer would be qualified. If less than 70 percent of
the sample claims met all seven attributes, the answer would be negative. A
materiality level was not set for loan default recoveries.




                                                                              16
                                                                Appendix II


Management
Comments
   TO:               AIG/A, Bruce N. Crandlemire

   FROM:             EGAT/DAA, Jonathan M. Conly

   SUBJECT:      Audit of Selected Micro and Small Enterprise
   Development Loan Guarantees in the Philippines

SUMMARY

      EGAT’s Office of Development Credit (ODC) has carefully reviewed
your draft report on the subject audit and appreciates the insights presented in
the report. We concur with your recommendations and they have prompted
us to make a number of changes in how we handle portfolio monitoring and
post-claim recoveries for loans made under both the Micro and Small
Enterprise Development Program (MSED) and the Development Credit
Authority (DCA). Attached is our detailed response to the report and a
description of the actions we have taken or plan to take in light of the
findings of the report.

DISCUSSION

      A key premise for offering 50% risk-sharing guarantees under the
MSED Program and DCA is that it ensures the guaranteed banks have ample
incentive to screen potential borrowers and actively monitor their portfolio to
minimize defaults. Largely as a result of this true risk-sharing between
USAID and the guaranteed banks, the aggregate default rate under the MSED
Program has been just 2% (well below an expected default rate for a pool of
guaranteed loans). This low default has produced a net gain of $10,657,962
for the MSED Program – the subsidy cost set aside for each guarantee plus
the fees exceeds the claims paid by $10,657,962.

      Although true risk-sharing has for the most part produced excellent
performance by our partner banks, the three banks that were the subject of
the audit proved to be poor risk-sharing partners. The many changes in ODC
portfolio management and monitoring generated by the audit will ultimately
minimize the aggregate losses to USAID and improve the quality of our risk-
sharing partners. We are very grateful for your constructive comments.

 ATTACHMENTS:
    Tab 1: Detailed response to report.
           “Management Comments To MSED Audit”


                                                                             17
                                                            Appendix II

MANAGEMENT COMMENTS TO MSED AUDIT

Recommendation No. 1: We recommend that the Office of
Development Credit review and recover, as appropriate, claims
totaling $891,813 for loans which violated the loan guarantee
agreements, and similarly review all other claims on defaulted loans
which were not covered by this audit.

We concur with your recommendation, including the amount of claims
identified in the audit. To pursue recoveries we have sent letters to each
of the three banks (in the case of Far East Bank and Trust Company and
Far East Bank Leasing & Finance Corporation, we have sent letters to the
bank that acquired each of them, Bank of the Philippine Islands). In the
case of Asia Trust, the letter indicates that USAID refuses to consider
pending claims until it receives adequate evidence of compliance with the
terms of the Guarantee Agreement. Each letter reminds the bank of its
liability to USAID under Section 2.02 of the Guarantee Agreement for
claims that were paid for non-complying loans. The letters further
underscore USAID’s right to reimbursement for such claims under the
terms of the Guarantee Agreement and the letters reiterate the banks’
obligation to continue to pursue collection activities and reimburse
USAID with its share of net recoveries.

After receiving a response from the banks, ODC will consider additional
steps and, if appropriate, will discuss with counsel in the Philippines the
prospects for achieving recoveries through litigation.

In addition, ODC has undertaken new measures to achieve post-claim
recoveries from banks that were not the subject of the audit. ODC has
recently sent letters to each bank that was paid claims under the MSED
Program. The letters reminded the banks of their ongoing duty to pursue
collection and reimburse USAID its share of net recoveries. As a result of
such letters, ODC has already received indications from partner Financial
Institutions (FIs) that they expect to reimburse USAID $32,000 from post-
claim recoveries by July 2003. ODC will continue to pursue post-claim
recoveries in accordance with newly implemented procedures discussed in
response to Recommendation No. 2 of the audit.


Recommendation No. 2:        We recommend that the Office of
Development Credit implement procedures to regularly monitor
recoveries on the Micro and Small Enterprise Development program
claims.

We concur with your recommendation and have implemented several new
procedures to monitor recoveries for both the MSED and DCA portfolios.
We have taken or plan to take the following measures to improve

                                                                        18
                                                                                 Appendix II

                     monitoring of the portfolio and increase the post-claim recoveries to
                     USAID: (i) monthly portfolio review meetings, (ii) annual certifications
                     by guaranteed banks of net recoveries, (iii) standardized provisions in
                     legal agreements that require an annual certification of net recoveries and
                     prohibit future claims if such certification is inaccurate, (iv) revised
                     monitoring plans for each DCA project, (v) relationship manager calling
                     plan whereby relationship managers are required to regularly call partner
                     banks, (vi) trigger indicators for guarantees with substantial claims –
                     reaching the trigger can prompt a USAID audit or inspection of the bank’s
                     records, and (vii) a new database for tracking and monitoring each loan
                     in the portfolio. Each of these implementation measures are described
                     more fully in the chart below and the succeeding paragraphs.

                 Improvements Implemented as a Result of IG Audit

                                                         Responsible Party
    Item/ Implementation Date
                                      ODC/              ODC/
                                     Portfolio       Relationship    General
                                    Management        Manager        Counsel          Mission
Monthly Portfolio Review Meetings
Status: Implemented                       X                X              X
Date: 2/20/2003
Annual Certification and Schedule
of Net Recoveries                         X                X                             X
Status: Implemented
Date: 4/30/2003
Standardized Guarantee Agreement
Template                                                                  X
Status: Implemented
Date: 5/01/2003
Revised Monitoring Plan
Status: Implemented                       X                                              X
Date: 5/15/2003
Relationship Manager Calling Plan
Status: Implemented                       X                X
Date: 6/06/2003
Trigger Indicators for Guarantees
with Substantial Claims                   X
Status: To be Implemented
Date: 08/31/03
Credit Monitoring System
Status: To be Implemented                 X                                              X
Date: 07/31/03




                                                                                             19
                                                          Appendix II

    Brief Explanation of the Above Measures

•   Monthly Portfolio Review Meetings- The purpose of these
    meetings is to highlight current portfolio management issues
    including late or delinquent reporting and fee payments, claims,
    recoveries, and non-compliance with DCA/MSED requirements.
    The overall financial performance of the combined MSED/DCA
    portfolio is also discussed and follow-up actions with respect to the
    FIs are assigned to individual ODC personnel. These meetings
    have enabled ODC staff to contact partner banks in a more timely
    manner to ensure fees are paid, post-claim recoveries are pursued
    and submitted claims are proper.

•   Annual Certification and Schedule of Net Recoveries- ODC has
    been contacting every partner Financial Institution (FI) that has
    received claim payments from USAID under the MSED Program
    (to date no claims have been submitted under DCA) in an effort to
    collect recoveries. ODC will continue to contact the partner FIs
    once per year to obtain form them a Certification Letter and
    complete Schedule of Net Recoveries detailing: (i) the Amount of
    Net Recoveries after reasonable expenses, (ii) the date of such
    recoveries, (iii) the amount of such recoveries due to USAID and
    (iv) the expected date such recovery will be remitted to USAID.
    As a result of this undertaking in 2003, ODC has received
    indications from partner FIs that they will be remitting $32,000 in
    post-claim recoveries by July 2003.

•   Standardized Guarantee Agreement Template- The legal
    advisors for ODC have revised the Guarantee Agreement Template
    that is used by USAID lawyers in preparing DCA Guarantee
    Agreements. The new template requires FIs which have been paid
    claims to submit annually a “Certificate of              Post-Claim
    Recoveries” in which they certify to the amount, if any, of post-
    claim recoveries along with a brief description of their collection
    efforts and the associated costs incurred. The template further
    states that “USAID may refuse to pay any claims if the Guaranteed
    Party has failed to submit an accurate Certification of Post Claim-
    Recoveries”. This change provides a powerful incentive for FIs to
    comply with the post-claim recoveries obligations because they
    risk having future claims rejected fit USAID determines that they
    have not adequately shared recoveries.

•   Revised Monitoring Plan- For each DCA project, a detailed
    Action Package describing various aspects of the project is
    submitted to the Credit Review Board. The Action Package
    includes development analysis, economic viability, financial


                                                                      20
                                                         Appendix II

    viability, fee justification and a monitoring plan. A revised
    monitoring plan will be included as part of the Action Packages
    that are presented to the Credit Review Board for all new DCA
    projects. The plan encourages closer coordination between ODC
    and the Mission and includes guidelines for timely and accurate
    reporting and fee payments, on-site visits, claims processing, and
    recoveries procedures.

•   Relationship Manager Calling Plans- In order to ensure
    continuous contact with Missions and Partner FIs, ODC has
    developed regionalized calling plans to stimulate dialogue
    regarding guarantee utilization, reporting, fee payments, potential
    claims and recoveries, and economic and political changes that
    could affect the guarantee. ODC Relationship Managers will be
    required to call the Partner FIs on at least a semi-annual basis and
    visit them at least biennially (once every two years) or, in the
    alternative, they will contact Mission personnel who are in contact
    with Partner FIs and obtain from them any relevant information
    about the FIs and the guarantee.

•   Trigger Indicators for Guarantees with Substantial Claims-
    ODC’s Risk Assessment Team, in conjunction with its Portfolio
    Management Team, are developing indicators that would place
    guarantees with substantial claims on a “watch list”. Once a
    guarantee is put on a “watch list”, it will receive heightened
    monitoring and scrutiny from ODC and, if appropriate, ODC may
    call for an inspection of the books or an audit of the FI.

•   Credit Monitoring System (CMS)- ODC is developing an on-line
    monitoring database that will encourage accurate and on-time
    reporting by partner FI’s. The CMS will have automated features
    to track compliance with some DCA and MSED requirements,
    such as borrower and loan eligibility.

Additional Improvements

•   Bank training- In an effort to build the capacity of DCA and
    MSED partner Financial Institutions, ODC will be hiring a
    contractor to provide training to selected FIs. ODC plans to have a
    bank training program in place by January 2004. The bank
    training improves the capacity of FIs to assess the creditworthiness
    of borrowers, manage a portfolio of loans and pursue collection
    against defaulting borrowers. The bank training also helps develop
    the capacity of FIs to keep adequate books and records in
    connection with USAID guaranteed loans – something that would



                                                                     21
                                                         Appendix II

    have been beneficial for the 3 audited banks since they failed to
    keep adequate records.

•   Increased ODC Staff for Portfolio Monitoring – From 1998 to
    2000 (the years when the MSED losses in the Philippines
    occurred), the ODC was staffed by an average of approximately 9
    people with no more than 2 people devoted to portfolio
    monitoring. ODC staff now has authorization to increase to 15
    people with up to 4 people for portfolio monitoring.

•   Mission-Driven – Unlike MSED, under DCA the loan guarantees
    are primarily identified and designed by Missions rather than
    AID/W, and Missions also share responsibility with ODC for the
    monitoring of DCA projects. The heightened role of Missions
    provides valuable monitoring assistance – there is no substitute for
    having people on the ground in the country 365 days a year.
    Mission staff regularly talk to the partner FIs in country.




                                                                     22
                                             Summary of Compliance with Loan Guarantee Agreements                                         Appendix III
                                                       For Three Banks in the Philippines


                                                                      Asiatrust
                                                                                   Standard Terms and Conditions Tested
                                         Claim
                                        Amount                                                                                                 Write-off or
                           Date Claim   Paid By    Borrower        Loan         Loan       Proper        Proof of         Collection Efforts      Loss
         Claim No.            Paid      USAID      Eligibility   Eligibility   Renewal   Enrollment    Disbursement                             Provision
              1            8/24/1999     $52,632
              2            8/24/1999     $52,632
              3            4/14/1999     $50,569
              4            8/28/2000     $49,628
              5            4/14/1999     $37,927
              6            9/28/1998     $34,839
              7            4/14/1999     $25,284
              8            4/14/1999     $25,284
              9            8/28/2000     $19,851
             10            4/14/1999     $18,963
             11            9/28/1998     $16,774
             12            4/14/1999     $13,880
             13            9/28/1998     $12,903
             14            8/24/1999      $9,456
             15            2/24/2000      $8,148
             16            4/14/1999      $7,172
             17            8/24/1999      $6,579
             18            4/14/1999      $3,280
             19            2/24/2000      $3,155
             20            4/14/1999      $2,528
     Exception Rates (%)                               30           100          75          25             20                   90                100

     ________ Exception; ________ Compliant
23
                                                                                                                                             Appendix III

                                                                     FEB Leasing
                                                                                     Standard Terms and Conditions Tested
                                            Claim
                                           Amount                                                                                          Write-off
                             Date Claim    Paid By     Borrower         Loan          Loan        Proper        Proof of      Collection    or Loss
          Claim No.             Paid       USAID       Eligibility    Eligibility    Renewal    Enrollment    Disbursement     Efforts     Provision
               1             9/28/2000      $67,788
               2             9/28/2000      $49,802
               3             9/28/2000      $40,807
               4             9/28/2000      $17,126
               5             9/28/2000      $11,790
      Exception Rates (%)                                  40             60           40           80             20             0           100



                                                                    FEB and Trust
                                                                                    Standard Terms and Conditions Tested
                                           Claim
                                          Amount                                                                                           Write-off
                            Date Claim    Paid By     Borrower         Loan          Loan        Proper        Proof of      Collection     or Loss
          Claim No.            Paid       USAID       Eligibility    Eligibility    Renewal    Enrollment    Disbursement     Efforts      Provision
               1             2/3/2000      $54,129
               2            8/24/1999      $51,316
               3            8/24/1999      $51,316
               4            8/24/1999      $26,316
               5            5/30/2000      $24,408
               6            12/9/1998      $23,015
               7            5/30/2000      $22,516
      Exception Rates (%)                                 14            100           100          57            43             100          100

     ________ Exception; ________ Compliant
24
